20-5483

IN THE SUPREME COURT OP THE UNITED STATES
JUNE TERM 2020
No.
DION BLACK
Reg. # A-741-043
London Corr.Institution
P.O. Box 69
London,Ohio 43140Petitioner,
-vsNORMAN ROBINSON,Warden
London Corr. Institution
P.O. Box 69
London,Ohio 43140
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE U1S
STATES COURT OF APPEALS FOR THE ? SIXTH CIRCUIT

1
I. QUESTION PRESENTED
Should the petitioner have been granted a certificate of appealability
where the State courtS/U.S. District Court and Sixth Circuit Court of
Appeals determined that the State court judgment did not violate the
double inference rule by relying on evidence not of record in violation
of the petitioner's right to confrontation and effective cross-examination
of adverse witnesses against him contrary to this Court's holdings in
Turney v. Ohio/ 273 U.S. 510/47 S.Ct. 745 (1927) & Gray v. Mississippi/
481 U.S. 648/107 S.Ct. 2045 (1987)
II.PARTIES
The petitioner was convicted in the Montgomery County Court of Common
Pleas(Ohio)/for possession of herion which was affirmed by the Montgomery
County/Ohio Court of Appeals and summarily affirmed by the U.S. District
Court for the Southern District of Ohio at Dayton and the U.S. Court of
Appeals for the Sixth Circuit and the respondent herein is the warden
of the London Correctional Institution/London/Ohio.
III.JURISDICTION
This Supreme Court of the United States retains jurisdiction to act
pursuant to 28 U.S.C.Section 1254(c) & 28 U.S.C. Section 2101(c)
IV.CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
In re Winship/397 U.S. 358 (1970); Jackson v. Virginia/443 U.S. 307
(1979);Ohio Revised Code Section 2901.05(A)

2
V. STATEMENT OF THE CASE
The facts as found by the Ohio courts,the district court and federal
court of appeals found the facts as follows:
Dion Black a pro se Ohio prisoner appealed the district court's
judgment denying his petition for a writ of heabeas corpus under 28 u.S.C.
2254.The appeals court construed petitioner's notice of appeal as an
spplication for a certificate of appealability and a request to proceed
in forma pauperis.
A jury convicted petitioner of possession of heroin and cocaine. The
trial court sentenced him to a total of eleven years of imprisonment, the
Ohio Court of Appeals affirmed.State v. Black,No. 27888,2018 WL 6435759
(Ohio Ct. App.Dec.7,2018). Petitioner then moved to reopen his appeal
under Ohio Appellate Rule 26(B) claiming ineffective assistSftee. of:
appellate counsel.The Ohio Court of Appeals denied the request to
reopen the appeal of right.State v. Black, No. 27888 ( Ohio App. Apr:12,2019).
The Ohio Supreme Court did not accept jurisdiction.State v. Black, 126
N.E. 3d 1171 ( Ohio 2019).(table).
Petitioner then filed a 2254 petition in the district court,claiming
that the evidence was insufficient to convict him and that he received
ineffective assistance of appellate counsel. A magistrate judge screened
petitioner’s petition pursuant to Rule 4 of the Rules Governing 2254
Cases and issued two reports and recommendations urging the district
court to dismiss the claims as being without merit. The district Court
adopted the magistrate judge's R&R over petitioner's objections and
denied the petition.The district court denied petitioner an COA and
the Cdutt of Appeals affirmed the denial of an COA.

3
The essential facts relied upon by both the State and federal
court to deny relief and an COA is as follows:
"Black's first claim is that the evidence was insufficient for the jury
to convict him because its verdicts were impermissibly based on the stacking
of inferences/i.e. basing one inference "solely and entirely upon another
inference".State v. Doubas/No. 100777/2015WL 4676110/at *6 ( Ohio Ct. App.
July 30/2015). In viewing the sufficiency of the evidence claim under the
AEDPA/the court gives the state
court's judgment a double layer of
deference. Brown v. Konteh/ 567 F. 3d 191/205 ( 6th Cir./2009). In making
this determination/ the court does not re-weigh the evidence/re-evaluate
the credibility of witnesses/or
substitute [its] judgment for that of the
jury. Second/ even if the court
concludes that a rational trier of fact
could not have found the petitioner guilty beyond a reasonable doubt/
it must defer to the state court's sufficiency determination as long as
lit is not unreasonable. Jackson v. Virginia/ 443 U.S. 307 (1979)(citing
28 U.S.C. 2254(d)(2).
Postal inspectors obtained a search warrant to open a suspicious
package that had been mailed to a fictitious address, the package held
a candle containg almost nine ounces of heroin, "a postal inspector
made a controlled delivery of the heroin to the address on the package.
[Black] answered the door and accepted the package even though it was
not addressed to him.When agents closed in on the house/to execute the
search warrant/Black fled/flinging his cell phone and the package
containing the heroin over a fence into a neighboring yard. Police
recovered the package and a small amount of crack cocaine from Black's
pocket and there were firearms and drug-paraphernalia inside of the
house. State v. Black/2018WL 6435759/at *1-2."
Both the district and court of appeals concluded that the petitioner
knowingly possessed the heroin and determined that reasonable jurists
could not debate their conclusions and denied petitioner a COA and
dismissed the habeas corpus applicarion with prejudice.
REASONS FOR GRANTING THE WRIT
In the first instance and in his objections to the magistrate
judge's report & recommendations/the petitioner objected that the
State court's findings of fact were clearly erroneous because the
testifying postal inspector testified at the State court trial
that after a two-year span since the crime occurred/she could
not identfy who she delived the suspect package to.

4
Accordingly, and pursuant to Federal Civil Rul&:12(c), both
the Magistrate judge and district court judge was required to
accept the petitioner's intial allegations as true as draw all
inferences therefro. See: Peterson v. Teodosio, (1973),34 Ohio St.
2d 161, ( quoting: 2A Moore's Federal Practice 2341 Section 12.15; 5 Federal
Practice & Procedure,Wright & Miller Sectionl368.
Accordingly, if the magistrate judge and district court accepted
the petitioner's initial allegations as true and drew all reasonable
inferences therefrom as required by Federal Civil Rule 12(c),then
reasonable jurists could conclude that where the State and federal
courts concluded that the postal inspector positively identified
the petitioner as the person who actually received the drugs from
her such courts were not basing their conclusion upon record evidence
but the judge's own personal recollection.
If true then such judge's deprived the petitioner his fundamental
right to to confront is accusers and to the effective cross-examination
of such judgesin violation of this Court's holding in Turney v. Ohio,
273 U.S. 510,47 S.Ct. 437 (1927).
In addition after accepting petitioner's initial allegations as
true that the postal inspector did not testify that it was him that
accepted the suspect package it remains that the jury's verdict did
reat upon them making and stacking an inference on an inference.
If so,then both the State and federal courts attempted to 'cure'
this constitutional infirmity by committing the second

constitutional

violation of basing their altimate decision not upon recod evidenceb,ut
rather upon the court's own personal opinion in violation of Turney
v. Ohio,supra.

5
However#this Supreme Court of the United States has made it
clear that a court may not cure one constitutional error by
comitting a second constitutional error.Cf. Gray v. Mississippi/481
U.S. 648/107 S.Ct. 2045(1987).
Conclusion
Wherefore# after accepting petitioner's intial allegations as true
and drawing all reasonable inferences therefrom#reasonable jurists
could conclude that petitioner's conviction rests in violation
of the double inference rule and that both the State and federal court
decisions does not rest upon credible State court evidence#but rather
on the serveral judge's^own personal opinions#constitutional.structural
defect error has occurred in this case.
For all of the foregoing reason reasonable jurists could debate
wherher the courts below ere correct in their resolution of this case
and because constitutional 'structural defect' error may have occurred
in this case# the case deserves encouragement to proceed futher.
As a result# this Supreme Court should grant the writ of
certiorari to the United States Court of Appeals for the Sixth
Circuit with instructions to grant the petitioner a Cetificate of
Appealability.
It Is So Prayed For
teagy^Tatfully submitted#
Dion Black-Petitioner

